Audit Report

Office for Victims of Crime 
Antiterrorism and Emergency Program 
Grant for Victim Assistance
Administered by the State of New Jersey
Department of Law and Public Safety Division of Criminal Justice, Trenton, New Jersey
Grant Number 2002-RF-GX-0006

Report No. GR-70-05-001


October 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Antiterrorism and Emergency Assistance Program (AEAP) grant awarded by the Office of Justice Programs (OJP), Office for Victims of Crime (OVC) to the New Jersey Department of Law and Public Safety, Division of Criminal Justice (the Division).  The purpose of this grant is to supplement the Victim of Crime Act (VOCA) funding received by the Division.  On April 23, 2002, the OVC awarded the Division $8,529,710 for counseling victims of the terrorist attacks of September 11, 2001, including their families and crisis responders. The grant award period began retroactively on         October 1, 2001 and expires on September 30, 2005.

We determined that the Division complied in part with OVC grant requirements.  We reviewed the compliance of the Division with five essential grant conditions.  We found weaknesses in four of the five areas we tested:  reporting, budget management and control, grant expenditures, and monitoring of subgrantees:

The Division did not submit an OVC-requested special performance report.

	The Division has not expended $3,796,060, or 45 percent of the grant award, in accordance with the approved grant budget.  

	The Division did not monitor adequately the grant activity performed by subgrantees.

Our audit results are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.